     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region I
                                                                          John F. Kennedy Federal Building
                                                                          Room 2425
                                                                          Boston, MA 02203

November 28, 2011

Report Number: A-01-11-00508

Ms. Rita B. Gylys
Associate General Counsel
Boston Medical Center
Office of General Counsel
One Boston Medical Center Place
Boston, MA 02118

Dear Ms. Gylys:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Place-of-Service Overpayments Refund Verification for
Boston Medical Center for Calendar Years 2006 Through 2010. We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact David Lamir, Audit Manager, at (617) 565-2704 or through email at
david.lamir@oig.hhs.gov. Please refer to report number A-01-11-00508 in all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Rita B. Gylys


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




      PLACE OF SERVICE
    OVERPAYMENTS REFUND
   VERIFICATION FOR BOSTON
     MEDICAL CENTER FOR
     CALENDAR YEARS 2006
        THROUGH 2010




                       Daniel R. Levinson
                        Inspector General

                        November 2011
                        A-01-11-00508
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Medicare Part B pays for services physicians provide to program beneficiaries. Although
physicians routinely perform many of these services in hospital outpatient departments or
freestanding ambulatory surgical centers, physicians also perform some services in nonfacility
settings, such as physician offices, urgent care centers, or independent clinics. To account for
the increased overhead expense that physicians incur by performing services in nonfacility
locations, Medicare reimburses physicians at a higher rate for certain services performed in these
locations. However, when physicians perform these same services in facility settings Medicare
reimburses the overhead expenses to the facilities and physicians receive a lower reimbursement
rate.

Physicians are required to identify the place of service on the health insurance claim forms that
they submit to Medicare contractors. The correct place-of-service code ensures that Medicare
does not reimburse a physician incorrectly for the overhead portion of the payment if the service
was performed in a facility setting.

Our previous nationwide reviews found that several Medicare contractors overpaid physicians
who did not correctly identify the place of service on their claims. These audits identified over a
million nonfacility-coded physician services that matched outpatient hospital claims for the same
type of service provided to the same beneficiary on the same day. These reviews identified
numerous instances of overpayments to Boston Medical Center (the Hospital) physicians
because claims the Hospital submitted contained an incorrect place-of-service code.

The Hospital submits claims for the overhead expenses of medical services performed at the
Hospital and bills on behalf of its physicians for Part B physician services. The Hospital’s
officials insisted on refunding all overpayments received resulting from these place-of-service
coding errors. The Hospital asked the Office of Inspector General to verify the accuracy of its
overpayment calculations so it could refund its Medicare contractor.

OBJECTIVE

Our objective was to determine the amount of overpayments for claims with place-of-service
coding errors submitted by the Hospital to its Medicare contractor for calendar years (CYs) 2006
through 2010.

SUMMARY OF FINDING

We determined that the Hospital submitted 7,520 claims with overpayments totaling $89,724 for
physician services for CYs 2006 through 2010. The Hospital, billing on behalf of its physicians,
incorrectly coded these claims by using nonfacility place-of-service codes for services that were
performed in one of the Hospital’s outpatient facilities.




                                                 i
RECOMMENDATION

We recommend the Hospital refund a total of $89,724 to the Medicare contractor for
overpayments resulting from coding errors on claims submitted on behalf of Hospital physicians
for CYs 2006 through 2010.

BOSTON MEDICAL CENTER COMMENTS

In written comments on our draft report, the Hospital concurred with our finding and
recommendation. The Hospital’s comments are included in their entirety as the Appendix.




                                              ii
                                           TABLE OF CONTENTS                                                             Page

INTRODUCTION................................................................................................................1

         BACKGROUND ........................................................................................................1
             Medicare Part B Payments for Physician Services ...........................................1
             Medicare Reimbursement for Practice Expense ...............................................1
             Prior Office of Inspector General Reports ........................................................1
             Boston Medical Center .....................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
              Objective ...........................................................................................................2
              Scope .................................................................................................................2
              Methodology .....................................................................................................3

FINDING AND RECOMMENDATION ...........................................................................3

          PAYMENTS BASED ON INCORRECT PLACE OF SERVICE ............................3
             Medicare Requirements ....................................................................................3
             Results of Review .............................................................................................4
             Inadequate Billing Controls ..............................................................................4

          RECOMMENDATION .............................................................................................4

          BOSTON MEDICAL CENTER COMMENTS ........................................................5

APPENDIX

          BOSTON MEDICAL CENTER COMMENTS




                                                                     iii
                                   INTRODUCTION

BACKGROUND

Medicare Part B Payments for Physician Services

Medicare Part B pays for services physicians provide to program beneficiaries. Physician
services include medical and surgical procedures, office visits, and medical consultations.
These services may be provided in facility settings, such as hospital outpatient
departments and freestanding ambulatory surgical centers (ASC), or in nonfacility
locations, such as physician offices, urgent care centers, and independent clinics.

Physicians are paid for services according to the Medicare physician fee schedule. This
schedule is based on a payment system that includes three major categories of costs
required to provide physician services: practice expense, physician work, and
malpractice insurance.

Medicare Reimbursement for Practice Expense

Practice expense reflects the overhead costs involved in providing a service. To account
for the increased practice expense that physicians generally incur by performing services
in their offices and other nonfacility locations, Medicare reimburses physicians at a
higher rate for certain services performed in these locations rather than in a hospital
outpatient department or an ASC. Physicians are required to identify the place of service
on the health insurance claim forms that they submit to Medicare contractors. The
correct place-of-service code ensures that Medicare does not reimburse a physician
incorrectly for the overhead portion of the service if the service was performed in a
facility setting.

Medicare claim form instructions specifically state that each provider or practitioner is
responsible for becoming familiar with Medicare coverage and billing requirements.
Some physician offices submit their own claims to Medicare; other offices hire billing
agents to submit their claims. Physicians are responsible for any Medicare claims
submitted by billing agents.

Prior Office of Inspector General Reports

Our previous nationwide reviews (A-01-08-00528 and A-01-09-00503) found that
several Medicare contractors overpaid physicians who did not correctly identify the place
of service on their claims. These audits identified over a million nonfacility-coded
physician services that matched outpatient hospital claims for the same type of service
provided to the same beneficiary on the same day. Our recommendations in those reports
called for the Medicare contractors to educate physicians regarding proper billing,
recover identified overpayments, and analyze postpayment data to detect and recover
overpayments for improperly billed claims. The Medicare contractors and CMS
generally concurred with our recommendations.

                                             1
Boston Medical Center

Boston Medical Center (the Hospital) is a 639-bed acute-care hospital located in Boston,
Massachusetts. The Hospital submits claims for the overhead expenses of medical
services performed at the hospital. In addition, the Hospital also bills on behalf of its
physicians for their Part B physician services. As the Medicare contractor for hospitals
and physicians in Massachusetts, National Heritage Insurance Corporation (NHIC)
processes and pays the Hospital’s claims for Medicare outpatient services and its claims
for physician services.

Our nationwide reviews identified numerous instances of overpayments by NHIC to the
Hospital for physician claims that contained an incorrect place-of-service code in
calendar years (CYs) 2006 through 2010. The Hospital’s officials insisted on refunding
all overpayments received resulting from these place-of-service coding errors. The
Hospital asked the Office of Inspector General to verify the accuracy of its overpayment
calculations so it could refund NHIC. We provided our data on the miscoded claims to
the Hospital to reach agreement on the amount of the overpayments for these miscoded
claims with dates of service from January 2006 through December 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the amount of overpayments for claims with place-of-
service coding errors submitted by the Hospital to its Medicare contractor for CYs 2006
through 2010.

Scope

Based on the Hospital’s request, we performed a limited scope review to determine the
accuracy of overpayments to be refunded by the Hospital for claims with physician place-
of-service coding errors for CYs 2006 through 2010.

Our audit covered 7,520 nonfacility-coded physician services valued at $348,048 that
were provided in CYs 2006 through 2010 and that matched hospital outpatient claims for
the same type of service provided to the same beneficiary on the same day.

The objective of our audit did not require an understanding or assessment of the complete
internal control structure at the Hospital. Therefore, we limited our review of internal
controls to the billing controls in place at the Hospital to prevent future program
overpayments resulting from place-of-service billing errors.

We conducted our fieldwork in February 2011 through August 2011.




                                            2
Methodology

To accomplish our objective, we:

       •    reviewed applicable Medicare laws and regulations,

       •    used data from our place-of-service reviews for CYs 2006 through 2010 to
            identify all office-coded physician claims that matched claims submitted by the
            Hospital for the same service performed for the same beneficiary on the same
            date,

       •    calculated the difference for each of these claims between the amount paid and
            the amount that would have been paid had the place-of-service been coded
            correctly,

       •    obtained support for the Hospital-calculated overpayments on claims with place-
            of-service errors in CYs 2006 through 2010,

       •    compared our data to the Hospital’s support documentation and worked with the
            Hospital to verify the accuracy of the overpayment total to ensure the
            completeness of the refund, and

       •    discussed the results of our review with officials of both the Hospital and NHIC.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

                               FINDING AND RECOMMENDATION

We determined that the Hospital submitted claims with overpayments totaling $89,724
for physician services for CYs 2006 through 2010. The Hospital, billing on behalf of its
physicians, incorrectly coded these claims by using nonfacility place-of-service codes for
services that actually were performed in one of the Hospital’s outpatient clinic facilities.

PAYMENTS BASED ON INCORRECT PLACE OF SERVICE

Medicare Requirements

Medicare payment for physician services is based on the lower of the actual charge or the
physician-fee-schedule amount. 1



1
    Section 1848(a)(1) of the Social Security Act, 42 U.S.C. § 1395w-4(a)(1).

                                                       3
For a physician to receive the higher nonfacility practice expense payment for a service,
the service must meet the requirements of 42 CFR § 414.22(b)(5)(i)(B), which , during
the period of our review, stated: “The higher nonfacility practice expense [relative value
units] apply to services performed in a physician’s office, a patient’s home, a nursing
facility, or a facility or institution other than a hospital or skilled nursing facility,
community mental health center, or ASC performing an ASC approved procedure.”
CMS publishes a quarterly physician fee schedule in the Federal Register showing those
services that have a higher payment rate if performed in a nonfacility setting.

Results of Review

The Hospital submitted 7,520 incorrectly coded claims for physician services for CYs
2006 through 2010. The Hospital, billing on behalf of its physicians, incorrectly coded
these claims by using nonfacility place-of-service codes for services that actually were
performed in one of the Hospital’s outpatient clinic facilities. When these services were
billed with the incorrect office place-of-service code, the physicians were paid the higher
nonfacility practice expense payment that they were not entitled. As a result, NHIC
incorrectly reimbursed the Hospital on behalf of its physicians for the overhead portion of
their services.

By repricing claims using the correct place-of-service code, we determined that NHIC
overpaid the Hospital, on behalf of its physicians, $89,724 for the 7,520 services that the
Hospital had billed incorrectly.

Inadequate Billing Controls

Sample items from our prior nationwide reviews identified that the Hospital did not have
adequate controls to ensure that its physician services claims were billed in accordance
with Medicare regulations during CYs 2006 through 2010. At that time, the Hospital
researched the problem and identified the system errors resulted from implementation of
new software in March 2006. Specifically, an undetected flaw in the design or
implementation of the software used for billing physician services claims caused all
physician services claims to be submitted with a nonfacility location as the place of
service.

We verified that the Hospital had corrected the cause of the coding errors in November
2010 by correcting its billing software for physician services performed at one of the
Hospital’s clinics to reflect the accurate facility place-of-service code.

RECOMMENDATION

We recommend the Hospital refund a total of $89,724 to the Medicare contractor for
overpayments resulting from coding errors on claims submitted on behalf of Hospital
physicians for CYs 2006 through 2010.




                                             4
BOSTON MEDICAL CENTER COMMENTS

In written comments on our draft report, the Hospital concurred with our finding and
recommendation. The Hospital’s comments are included in their entirety as the
Appendix.




                                           5
APPENDIX
                                                APPENDIX: BOSTON MEDICAL CENTER COMMENTS


                                                                                     Office of the General Counsel
                                                                                     617-638-7950 (direct)
EXCEPTIONAL CARE. WITHOUT EXCEPTION. 	                                               617-638-8875 (fax)
                                                                                     rita.gylys@bmc.org

   One Boston Medical Center Place
   Boston. MA 02118-2999
   Tel : 617 638 8000
   Tel: 617 414 5000

   www.bmc.org      November 10, 2011


                    By Certified Mail. Return Receipt
                    Mr. Michael Armstrong 

                    Regional Inspector General for Audit Services 

                    Department of Health and Human Services 

                    Office of Inspector General 

                    Office of Audit Services, Region I 

                    John F_ Kermedy Federal Building 

                    Boston, MA 02203 


                    Re:           Report Number A-OI-ll-00508

                    Dear Mr. Armstrong:

                    The letter is on behalf of Boston Medical Center Corporation in response to the U.S.
                    Department of Health and Human Services, Office ofInspector General (OIG), draft
                    report entitled Place-Of-Service Overpayments Refund Verification for Boston Medical
                    Center for Calendar Years 2006 Through 2010.

                        Boston Medical Center concurs with the recommendation and agrees to refund the sum of
                        $89,724 to the Medicare contractor for CY 2006 through 2010. For dates of services on
                        or after December 1, 2010, the dictionary of the electronic billing system has been
                        corrected to reflect that services are being performed at a satellite of th e Hospital (i. e.,
                        place of service code #22).

                        Thank you.

                        Sincerely,



          ~~
           GYIYS~~      Rita B.
                        Associate General Counsel

                        Enc!.

                        cc: Ms. Barbara Lottero
